HHS/OIG, Audit - "Procurements Made by the National Institutes of Health
for the Department of Defense," (A-03-07-03000)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Procurements
Made by the National Institutes of Health for the Department of Defense," (A-03-07-03000)
January 10, 2008
Complete
Text of Report is available in PDF format (1.27 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We conducted this review pursuant to section 817 of the
Department of Defense Authorization Act for Fiscal Year 2007 (Public
Law 109-364).  The NIH Information Technology Acquisition and Assessment
Center (the Center) complied with appropriation statutes and financial
management regulations for 13 of the 28 task orders that we reviewed but may not
have complied for the remaining 15 task orders.  Also, the Center generally
complied with acquisition regulations and Governmentwide contract provisions.
However, the Center did not always maintain adequate documentation with respect
to acquisition planning, competition, award decisions, and contractor
monitoring.
We recommended that the
Center (1) work with the Department of Defense (Defense)
to resolve the obligation of $11.8 million in operations and maintenance funds
instead of research, development, testing, and evaluation funds for 4 task
orders; (2) work with Defense to resolve the use of $25.4 million for equipment
and services that were not provided during the period of performance for 13 task
orders; (3) comply with Federal appropriation statutes and financial management
regulations on obligating and expending funds, and (4) improve
controls for documenting the task order award and oversight processes.
NIH concurred with our recommendations.